Wisconsin State Public Defender
Protecting
Justice for all
S Since 1977

735 N. Water St. – Ste 912
Milwaukee, WI 53202-4116
Office Number: 414-227-4805 / Fax Number: 414-227-4508
www.wispd.org

Kelli S. Thompson
State Public Defender
Katie R. York
Appellate Division Dir.
Andrea Cornwall
Regional Attorney Mgr.

October 7, 2021

VIA ELECTRONIC FILING AND U.S. MAIL
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Wisconsin v. Mark D. Jensen
No. 21-210

Dear Mr. Harris:
We represent the Respondent, Mark D. Jensen, with regard to the above-captioned case.
The Petition for a Writ of Certiorari in the above-entitled case was filed on August 10, 2021 and
placed on the docket on August 13, 2021. On September 3, 2021, we filed a waiver of right to
respond. On September 15, 2021, the Court ordered a response. The current due date for the briefin-opposition is October 15, 2021.
Pursuant to Rule 30.4 of the United States Supreme Court, we request a thirty (30) day
extension of time to file a brief in opposition to the Petition for a Writ of Certiorari. As staff
attorneys for the Wisconsin State Public Defender, we have a large case load and require additional
time to adequately research and address the arguments presented by the Petitioner.
Accordingly, we respectfully request a thirty (30) day extension of time, until November 15,
2021, to file the brief in opposition to the Petition.
We sincerely thank you for your time.
Respectfully submitted,

Andrea Taylor Cornwall
Assistant State Public Defender

Wisconsin Forward Award Mastery Recipient

